l
No. 20-126
INTHE

~upreme <tl:ourt of tbe mlniteb ~tateg
ANDALUSIAN GLOBAL DESIGNATED
ACTIVITY COMPANY, ET AL.,

v.

Petitioners,

THE FINANCIAL OVERSIGHT AND MANAGEMENT
BOARD FOR PuERTO RICO, ET AL.,

Respondents.
CERTIFICATE OF SERVICE

Pursuant to this Court's Rule 29 and order of April 15, 2020, I hereby certify that
I am a member in good standing of the bar of this Court and that on this 27th day of
October, 2020, all parties required to be served have been served with one paper copy
and one electronic copy of the Reply Brief for Petitioners.

Martin J. Bienenstock
PROSKAUER RoSE LLP
Eleven Times Square
New York, NY 10036
(212) 969-4530
mbienenstock@proskauer.com

Counsel for Financial Oversight and
Management Board for Puerto Rico, as
Representative for the Employees
Reti-rement System of the Government of
the Commonwealth of Puerto Rico

Ian Heath Gershengorn
JENNER & BLOCK LLP
1099 New York Avenue, N.W.
Suite 900
Washington, DC 20001
(202) 639-6869
igershengorn@jenner.com

Counsel for Official Committee of
Retirees for the Commonwealth of Puerto
Rico

